<html>
<title> - MARKUP OF H.R. 94, TO AMEND THE INTERNAL REVENUE CODE OF 1986 TO PROHIBIT THE USE OF PUBLIC FUNDS FOR POLITICAL PARTY CONVENTIONS; H.R. 95, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING TAXPAYER FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS AND PARTY CONVENTIONS; H.R. 1994, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; COMMITTEE RESOLUTION DISMISSING THE ELECTION CONTEST IN CA-43; AND COMMITTEE RESOLUTION DISMISSING THE ELECTION CONTEST IN TN-9</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   MARKUP OF H.R. 94, TO AMEND THE INTERNAL REVENUE CODE OF 1986 TO 
PROHIBIT THE USE OF PUBLIC FUNDS FOR POLITICAL PARTY CONVENTIONS; H.R. 
95, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING TAXPAYER 
  FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS AND PARTY CONVENTIONS; 
 H.R. 1994, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; COMMITTEE 
  RESOLUTION DISMISSING THE ELECTION CONTEST IN CA-43; AND COMMITTEE 
           RESOLUTION DISMISSING THE ELECTION CONTEST IN TN-9 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                  Held in Washington, DC, June 4, 2013

                               __________

      Printed for the use of the Committee on House Administration

                       Available on the Internet
                             www.fdsys.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-809 PDF                       WASHINGTON : 2013 


                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director


   MARKUP OF H.R. 94, TO AMEND THE INTERNAL REVENUE CODE OF 1986 TO 
PROHIBIT THE USE OF PUBLIC FUNDS FOR POLITICAL PARTY CONVENTIONS; H.R. 
95, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING TAXPAYER 
  FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS AND PARTY CONVENTIONS; 
 H.R. 1994, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; COMMITTEE 
  RESOLUTION DISMISSING THE ELECTION CONTEST IN CA-43; AND COMMITTEE 
           RESOLUTION DISMISSING THE ELECTION CONTEST IN TN-9

                              ----------                              


                         TUESDAY, JUNE 4, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Gingrey, Rokita, 
Nugent, Brady, Lofgren and Vargas.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Joe Wallace, Legislative 
Clerk; Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Bob Sensenbrenner, Elections Counsel; Jamie Fleet, Minority 
Staff Director; Matt Pinkus, Senior Policy Analyst; Khalil 
Abboud, Minority Elections Staff; Thomas Hicks, Minority 
Elections Counsel; Greg Abbott, Minority Professional Staff 
Member; and Eddie Flaherty, Minority Professional Staff Member.
    The Chairman. I would like to call to order the Committee 
on House Administration for today's committee markup. A quorum 
is present so we can proceed. First of all, the meeting record 
will remain open for 5 legislative days so that members might 
submit any materials that they wish to have included for the 
record.
    Today we will consider five items in our markup: A 
committee resolution dismissing the election contest in the 
43rd Congressional District of California; a committee 
resolution dismissing the election contest in the 9th 
Congressional District of Tennessee; the committee is also 
going to be considering H.R. 94, which prohibits the use of 
public funds for political party conventions; H.R. 95, which 
terminates taxpayer financing of presidential election 
campaigns and party conventions; and then finally as well in 
the mark will be H.R. 1994 under consideration which is the 
Election Assistance Commission Termination Act.
    Our two election contests dismissals, first of all, I would 
like to comment that both of these contests fail every test of 
validity. This committee has made a practice in the past of 
considering all contests under the Federal Contested Elections 
Act in public meetings to assure that they are treated fairly, 
and I hope that commitment to full and fair considerations 
would not be jeopardized by meritless filings as both of these 
two clearly are.
    Our next two items on the agenda, again, cover the 
Presidential Election Campaign Fund, the PECF. This committee 
held hearings in the 111th Congress that included testimony on 
the PECF and the House voted on similar bills in the 112th 
Congress, and I think in light of what is happening with this 
fund and changing times as well, it is certainly appropriate 
for us to be revisiting this legislation today.
    The money in the PECF comes from taxpayers who are given 
the option to have $3 out of their taxes that they are already 
paying placed in the fund. Taxpayers, I think, are already 
voting to end the PECF regardless of what Congress does here 
because at its peak of its popularity in 1980, about 29 percent 
of filers actually participated in this fund. By 2012, however, 
that dropped to approximately 5 percent. So even though it 
doesn't cost them more in taxes, the American people are 
telling us that this is a program that they don't want.
    Since we started using taxpayer funds for presidential 
campaigns and party conventions, supposedly to restore 
confidence in government, 20 percent of the American people 
actually think less of their elected officials than when we 
started. So it is no surprise that they don't want to pay for 
this failed program anymore.
    The PECF's popularity has certainly decreased among 
politicians as well. In fact, despite his stated support for 
this program, President Obama was actually the first major 
party candidate to entirely opt out of the program since it 
started. He did not participate in either the primary or 
general elections. Major candidates started refusing primary 
election money as far back as 2000. And in 2012, only three 
candidates applied for money from this fund. They were Gary 
Johnson, Buddy Roemer and Jill Stein. So taxpayers don't 
support the fund, the candidates are not using it, and I think 
citizens don't have any more confidence in the government 
because of the program, so I would say it is a textbook example 
of a failed program, one that we need to end.
    One part of the PECF pays part of the cost for nominating 
conventions for the major political parties, which are now 4-
day extravagances that the major television networks don't 
broadcast in their entirety anymore. Last year the RNC and DNC 
received about $18 million each to conduct their party 
nominating conventions. That is $36 million in tax dollars 
spent for use by political parties.
    The parties themselves raised another $80 million or so in 
private money for their conventions. I would say that clearly 
the parties are up to the job of paying for their own 
conventions. They don't need taxpayer subsidies to help do 
that.
    I think if they knew the details of what they were actually 
paying for, taxpayers would even be less happy about it. It was 
interesting looking at a review by Senator Coburn at 2008 funds 
that were provided for conventions. The funds were used for 
things like floral arrangements, gift bags and live music and 
even makeup consultants, this at a time certainly when people 
all over our Nation are learning to get by with less. So I do 
not think that as stewards of the taxpayer dollars in good 
conscience, we should be spending taxpayer money on political 
conventions. H.R. 94 then would prohibit taxpayer funds from 
being used for party conventions, and I think it is at least a 
start.
    H.R. 95 would eliminate the PECF altogether and use the 
remaining funds to pay down the deficit. Money that would have 
gone into the fund in the future will be available for other 
programs and the $260 million sitting in that fund today will 
go straight toward cutting the amount of money that we would 
have to borrow and actually reducing the deficit.
    Speaking of failed programs, I also think it is time for 
H.R. 1994, the Election Assistance Commission Termination Act 
to end. It has far outlived its purpose, no longer benefits 
voters or election officials, and yet despite an original 
sunset date of 2005, it continues to exist without any 
commissioners.
    My colleague from Mississippi, Mr. Harper, has led this 
mission to finally shut down this agency that has become a 
prime example of waste shielded by bureaucracy. The EAC has no 
more money to give out to States, its research programs are 
completed, the Voting System Certification Program that it runs 
is built around a model and a marketplace that has failed, and 
needs to be really reimagined.
    The EAC hasn't even had commissioners or an executive 
director since 2011 and the country does not seem to be 
suffering as a result. In fact, the academic research that we 
have seen so far says that the operation of the 2012 election 
was really no worse than the 2008 election. Most of the 
problems that we saw certainly in the last election were from 
negligence at the local level. So there is just no need for 
this agency to exist. We need to shut it down.
    At this time, I would like to recognize my colleague and 
the committee's ranking member, Mr. Brady, for his opening 
statement.
    Mr. Brady. Thank you, Madam Chair. I don't have an opening 
statement. I do have a statement for each bill when we call up 
the bills and we will be offering amendments and we will do it 
at that time.
    The Chairman. Very well. I also ask unanimous consent to 
enter into the record the statement from a sponsor of H.R. 94 
and 95, Mr. Tom Cole, concerning the Presidential Election 
Campaign Fund, and, without objection, that will be so ordered.
    [The statement of Mr. Cole follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I would ask if any other members have an 
opening statement at this time? The chair recognizes the 
gentleman from Mississippi, Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    It has been more than 4 years since my first oversight 
hearing with the Election Assistance Commission as a member of 
this committee, and more than 2 years since I first introduced 
legislation to terminate the EAC. Since that time, the agency's 
actions, or lack thereof, has proven why the original bill did 
not go far enough in cutting this bloated agency spending. The 
EAC has proven, yet again, that it is not necessary to the 
conduct of Federal elections. It is an unnecessary expenditure 
of taxpayer funds.
    The EAC initially had a 3-year mandate, but as with most 
government programs, it found a way to maintain its existence. 
Unfortunately, it has become a bloated bureaucracy that 
mismanaged taxpayer dollars and has been the subject of two 
discriminatory hiring lawsuits, both of which cost the 
taxpayers money to resolve. The remaining EAC functions, to the 
extent they are useful, can be performed more efficiently by 
other government or private entities. The best course that we 
can take as the EAC's committee of jurisdiction is to simply 
dissolve the agency and end its wasteful spending.
    The EAC has outlived its useful life. The Commission was 
originally designed to distribute money and oversee upgrade of 
States' voting machines. The EAC has distributed over $3.1 
billion of money for States for machine upgrades and election 
improvements, and that stream of funding has ended. The EAC's 
testing and certification program for voting machines has been 
almost entirely left unused in recent years. The program only 
has 11 voting machines with current certification and one in 
the testing phase. The machines are still being tested to 
standards created in 2005. This onerous costly program is 
outdated and stifles innovation in the elections community.
    Even more important, the EAC has not had enough 
commissioners to act and conduct business since December of 
2010 and has not had any commissioners since December of 2011. 
The Commission has also lacked an executive director since 
December 2011 and a general counsel since May of 2012, 
prohibiting them from conducting official business for the last 
2 years. And the overwhelming majority of the country does not 
seem to have noticed. Yet despite its absence of any mission or 
leadership, the agency is still receiving an appropriation of 
$11.5 million.
    Wasting money on ineffective useless agencies like the EAC 
is yet another example of irresponsible government spending. We 
need to finally put an end to this. This agency has outlived 
its usefulness and to continue to fund it is the definition of 
irresponsibility. This is not a conclusion that we have come to 
lightly. We put in the time and effort through hearings and 
meetings with experts and election officials, and come to the 
conclusion that this agency needs to go.
    NASS, the National Association of Secretaries of State, a 
bipartisan organization, adopted resolutions calling for the 
dissolution of the EAC in 2005, and renewed that again in 2010. 
It is simply the time to end the EAC and save the American 
taxpayers almost $12 million a year at a time when our Nation 
is hurting financially.
    It doesn't get any easier to find an example of wasteful 
spending. If we can't do this, we might as well pack up and go 
home, because this is as obvious as it gets.
    Chairman Miller, thank you for your time and I yield back.
    The Chairman. Thank you, gentleman. Are there any other 
committee members that wish to have an opening statement?
    The chair recognizes the gentleman from Georgia, Dr. 
Gingrey.
    Mr. Gingrey. Madam Chairman, I want to thank you for 
calling this important markup on elections legislation. I am in 
strong support of the combined efforts by my good friends Mr. 
Cole and Mr. Harper to reduce Federal spending by ending the 
public financing of campaigns and conventions, and to terminate 
the Election Assistance Commission. As presidential campaigns 
in this day and age are becoming increasingly expensive and 
costing billions of dollars, the idea of having taxpayers 
contribute matching funds to them is ludicrous. Passage of Mr. 
Cole's bills to eliminate The Presidential Election Campaign 
Fund would immediately return approximately $260 million to the 
Treasury.
    Regarding H.R. 1994, I believe that the Election Assistance 
Commission has indeed outlived its usefulness. The Election 
Assistance Commission was designed to distribute money to 
States to make improvements to their election processes. 
However, the Commission has not had a quorum since 2010. 
President Obama himself appears to believe the Commission now 
has little value as evidenced by his creation of a new entity 
to advise on elections. Eliminating the Election Assistance 
Commission is estimated to save taxpayers at least $11.5 
million a year.
    Madam Chairman, in the midst of record levels of debt, we 
must scrutinize where every dollar of taxpayer money is being 
spent to ensure we are allocating these funds responsibly and 
delivering the best possible value to our citizens. I believe 
the bills we are marking up here today help to accomplish those 
goals.
    I yield back.
    The Chairman. I thank the gentleman. Do any other members 
have an opening statement?
    If not, at this time I will call up and lay before the 
committee an original resolution dismissing the election 
contest for the 43rd District of California. Without objection, 
the first reading of the resolution is dispensed with. The 
resolution is considered read and open for amendment at any 
point.
    [The resolution follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Let me just, first of all, say in regards to 
both of these election contests, these contests are about as 
frivolous as election contests can be. Apparently they are both 
sent by the same individual who is incarcerated, I think, in 
Tennessee. But we had the legal staff look back and for about a 
century, we have really taken up even the most frivolous 
contests to the full House for dismissal in an effort to be 
fair and transparent, so again, we bring up these resolutions 
for the sake of the institution, not because either of them 
have any merit whatsoever.
    Is there any debate on this resolution?
    Do any members want to offer an amendment to the 
resolution?
    If not, I move the committee favorably report the original 
resolution to the House. The question is on the motion. All 
those in favor, signify by saying aye; those opposed, say nay.
    The motion is carried. In the opinion of the chair, it has 
carried.
    Mr. Brady. Madam Chair, I do agree with dismissing the 
frivolous and ridiculous election contest, but I would like to 
announce that minority members will use two additional calendar 
days provided by clause 2(l) of rule XI of the Rules of the 
House in order to file views.
    The Chairman. Very well. I thank the gentleman. Without 
objection, the motion to reconsider is laid upon the table and 
pursuant to clause 2 of rule XI, the member is entitled to two 
additional calendar days to file such views in writing signed 
by that member to the clerk of the committee.
    I will now call up and lay before the committee an original 
resolution dismissing the election contest for the 9th District 
of Tennessee. Without objection, first reading of the 
resolution is dispensed with, the resolution is considered read 
and open for amendment at any point.
    [The resolution follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate or amendments to this 
resolution?
    If not, I move the committee favorably report the original 
resolution to the House. The question is on the motion. All 
those in favor signify by saying aye; those opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it, the motion is agreed to. Without objection, the motion 
to reconsider is laid on the table.
    Mr. Brady. Madam Chair, again I would like to announce that 
the minority members will use the 2 additional calendar days 
provided by clause 2(l) of rule XI of the Rules of the House in 
order to file views.
    The Chairman. Pursuant to clause 2 of rule XI, the member 
is entitled to two additional calendar days to file such views 
in writing and signed by that member with the clerk of the 
committee.
    I will now call up and lay before the committee H.R. 94, a 
bill to amend the Internal Revenue Code of 1986 to prohibit the 
use of public funds for political party conventions. Without 
objection, the first reading of that bill is dispensed with and 
the bill is considered read and open for amendment at any 
point.
    [The bill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Do any members of the committee wish to 
comment on this bill?
    Mr. Brady.
    Mr. Brady. Madam Chair, I urge the defeat of this bill. 
Both major parties have used public funds to pay for their 
nominating conventions since 1976. While I believe that paying 
for party conventions is not the best use of our tax dollars, I 
also do not believe that this legislation--I do not believe 
this legislation is the best solution. We should reject it 
because we need a comprehensive fix to the way we finance 
presidential campaigns. Hopefully this committee can have a 
hearing on the excellent proposal by Representative David Price 
to do just that, and I urge my colleagues to defeat this 
proposal. Thank you.
    The Chairman. I appreciate the gentleman's comments. As I 
mentioned in my opening statement, I think when we think about 
$16 trillion and no end in sight worth of debt, the American 
taxpayers should not be really having welfare for politicians 
or political parties running infomercials for presidential 
campaigns. I think that this bill is long overdue.
    Do any other members wish to comment on this bill?
    Do any members want to offer an amendment to the bill?
    Mr. Brady. Madam Chairman, I have an amendment which has 
been distributed to the members.
    The Chairman. The gentleman is recognized for 5 minutes to 
talk to his amendment.
    [The amendment by Mr. Brady follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Brady. Thank you, Madam Chair. My amendment ends the 
use of public funding as well as the use of soft money 
contributions for nominating conventions. We should not 
eliminate public money for party conventions only to replace it 
with undisclosed contributions from special interests.
    My amendment institutes a hard money system subject to 
contribution limits. My amendment is based on a proposal by 
Representative David Price from North Carolina who has been a 
leader in this area for a long time. My amendment is also a 
commonsense replacement for the current system which is in 
desperate need of reform. This is an important first step that 
provides more accountability and disclosure in how we finance 
our conventions. I ask for your support of this amendment.
    The Chairman. I would say to the gentleman, since we just 
received the amendment just a little bit ago, we haven't really 
had a chance to completely digest his amendment. I am very 
interested in our overall goal of stopping taxpayer financing 
for these kinds of things. But if the gentleman is interested 
in working with us, I think we would be willing to do so. If 
you are interested in withdrawing that amendment, I certainly 
would commit to the gentleman that I would be willing to look 
at this in depth and perhaps we can come to some agreement 
before we go to the floor with it. I would certainly be open to 
that with the gentleman.
    Mr. Brady. Madam Chairman, I am always interested in 
working with you, and with that, I will withdraw my amendment.
    The Chairman. I thank the gentleman. Are there any other 
comments or any other members that want to offer an amendment 
to this bill?
    If not, I would move that the committee favorably report 
H.R. 94 and the question is on the motion. All those in favor 
signify by saying aye; those opposed say nay.
    In the opinion of the chair, the ayes have it and the 
motion is agreed to.
    Mr. Brady. Madam Chair, I would like to announce that the 
minority members will use the 2 additional calendar days 
provided by clause 2(l) of rule XI of the Rules of the House in 
order to file views, and I thank you.
    The Chairman. Again, to the gentleman, pursuant to clause 2 
of rule XI, the member is entitled to 2 additional calendar 
days to file such views in writing signed by that member with 
the clerk of the committee.
    I would now call up and lay before the committee H.R. 95, a 
bill to reduce Federal spending and the deficit by terminating 
taxpayer financing of presidential election campaigns and party 
conventions.
    Without objection, the first reading of the bill is 
dispensed with and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate or members that wish to 
offer an amendment? The gentleman from Pennsylvania.
    Mr. Brady. Madam Chair, I urge also the defeat of this 
bill. Created in the wake of the Watergate scandal, The 
Presidential Election Campaign Fund was designed to restore 
integrity to our presidential elections. Since 1976, 
presidential candidates from both sides of the aisle have opted 
to fund their campaigns using PECF instead of private 
contributions.
    Like convention funding, all money used for the campaign 
funding functions of the PECF is contributed voluntarily by 
taxpayers. We should honor the wishes of those taxpayers. 
Beginning with the Citizens United decision, we have seen a 
disturbing pattern of increasing influence of large and 
undisclosed monies in our politics. Terminating the only public 
finance system at the Federal level runs the risk of handing 
over our election to special interests entirely.
    The system needs reform, not repeal. By modernizing the 
system, we can ensure that Americans continue to have a voice 
in the process, no matter how small their contribution, and I 
urge my colleagues to defeat this bill.
    The Chairman. I thank the gentleman. Are there any other 
debate does any member have an amendment to the bill?
    Mr. Brady. Madam Chair, I have an amendment in the nature 
of a substitute which has been distributed to the members.
    [The amendment of Mr. Brady follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Brady. Presidential elections see dramatic increases in 
turnout compared to midterm elections, overburdening election 
officials and creating unique problems, particularly for our 
most vulnerable voters. The amendment reserves a small portion 
of the Presidential Election Campaign Fund balance for the 
Elections Assistance Commission to improve election 
administration in presidential election years. By checking the 
right box on their tax return, millions of taxpayers voted to 
have their money used in support of Federal elections.
    This amendment adds another goal to the Presidential 
Campaign Fund by working with the Elections Assistance 
Commission to make sure soldiers, students and disabled voters 
have access to the ballot. While the presidential election 
funding system needs reform, we cannot be distracted from our 
duty to make sure every eligible voter gets to the poll and 
this proposal makes this happen. I urge the support for my 
amendment.
    The Chairman. I thank the gentleman for offering the 
amendment. In this case, I would say I will be opposed to the 
gentleman's amendment. I appreciate the spirit in which it has 
been offered. I think as has been pointed out, if we pass this 
we actually return approximately $260 million back to the 
Treasury at this time.
    As I mentioned in my opening statement, when you look at 
the history of the participation for this particular fund, you 
had almost 29 percent back in 1980 of the folks that were 
participating in it, and by 2012, you had about 5 percent. 
Again, in the 2012 election cycle, no viable major candidate, 
party candidate, accepted either matching funds for either 
their primary or their general.
    So I do think that this is a good bill and again, I think 
it is appropriate for us to consider it. I will be opposing the 
gentleman's amendment.
    Are there any other comments about the gentleman's 
amendment?
    The gentleman from Mississippi.
    Mr. Harper. I would just like to speak in opposition to the 
amendment. I have certainly great respect for Mr. Brady, but I 
just believe that this would be an attempt where we would be 
rewarding bad behavior. It is clear, whether it is NASS, the 
National Association of Secretaries of State and the fact that 
that bipartisan group, not once but twice, has said that we 
need to end it, this is, in effect, perpetually funding the EAC 
and we don't need to go that route.
    Of course, we are all very sensitive to make sure that 
everyone has the opportunity to vote and I believe Mr. Brady's 
intentions are well meant, but I believe that the EAC should 
not continue. These are matters that can be handled by the 
localities and the States.
    I yield back.
    The Chairman. I thank the gentleman. I associate myself 
with his remarks, particularly when we think about voting for 
our military members. Again, I appreciate the spirit in which 
the amendment has been offered. As we all know, the DOD is 
currently and have been undertaking and we are hoping for a 
report here shortly, about military voting, at which time, I 
think that was due at the end of May or the beginning of June 
here, but it should be happening shortly, we will have an 
opportunity, all of us as a committee, to discuss, and most 
probably have a hearing on that particular report as well in 
regard to how we make sure that all of our military members are 
able to exercise their franchise to vote in a timely way and 
one in which they are counted.
    Any other comment about the amendment? The gentleman from 
Georgia.
    Mr. Gingrey. Madam Chairman, thanks for the recognition, 
and I too am opposed to the gentleman's amendment, not the 
spirit of his amendment, of course. But here are some of the 
reasons why, from a policy perspective, I would oppose it.
    I think it has already been mentioned that you could call 
this the Election Assistance Commission perpetual life 
amendment, because the amendment converts $10 million per year 
from the Presidential Elections Commission Fund to the EAC, and 
then this amount is actually indexed for inflation. This makes 
mandatory appropriations for the EAC not subject to the regular 
appropriations process.
    So the amount is reserved for improvements in ability to 
vote for members of the uniformed services, elderly individuals 
and individuals with disabilities to cast ballots in such 
elections.
    Mandatory appropriations will reduce oversight of the EAC. 
The EAC has been the subject of harsh bipartisan oversight from 
both Democrat and Republican chairmen of this committee. The 
EAC has fulfilled its purpose. This amendment seems to be 
repurposing the Commission just so that they have something to 
do.
    I do appreciate and share Mr. Brady's desire to help 
military and elderly voters, but this Commission isn't the 
group to do it. Why would we task the EAC with military voting 
when we have the Federal Voting Assistance Program? And given 
the EAC's recent mismanagement of resources, what assurances 
would we have that they would even be able to provide 
assistance to these groups? So for that reason, and others that 
I have mentioned, Madam Chair, I, too, oppose the amendment.
    The Chairman. I thank the gentleman. Any other comments or 
questions by members? If not the question is on the amendment 
offered by the gentleman to H.R. 95. All those in favor of the 
amendment will signify by saying aye; opposed will signify by 
saying no.
    In the opinion of the chair the noes have it, the noes have 
it, the amendment is not agreed to.
    Are there any other amendments?
    If not, I move that the committee favorably report H.R. 95 
to the full House, and the question is on that motion. Those in 
favor signify by saying aye; opposed, say no.
    In the opinion of the chair, the ayes have it, the ayes 
have it, and the motion is agreed to.
    Mr. Brady. Madam Chair, I announce that the minority 
members will use the 2 additional calendar days provided by 
clause 2(l) of rule XI of the Rules of the House in order to 
file views.
    The Chairman. I appreciate the gentleman. Pursuant to 
clause 2(l) of rule XI, a member is entitled to 2 additional 
calendar days to file such views in writing signed by that 
member with the clerk of the committee.
    I now call up and lay of before the committee H.R. 1994, a 
bill to terminate the Election Assistance Commission. Without 
objection, the first reading of the bill is dispensed with, the 
bill is considered read and open for amendment at any point.
    [The bill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Are there any comments or debate in regard to 
the bill? Mr. Brady.
    Mr. Brady. Madam Chair, thank you. This is the third 
attempt to terminate the EAC since the outset of the 112th 
Congress. On this matter, I don't believe the third time is a 
charm. I have opposed this proposal before, and I oppose this 
bill today. Thank you.
    The Chairman. I thank the gentleman. Any other comments or 
debate on the bill? Do any members want to offer an amendment 
to the bill?
    Mr. Brady. Madam Chair.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Brady. Thank you. Madam Chair, the arguments in support 
of EAC are well-known. It is the only Federal agency tasked 
with assisting State and local elections offices to ensure 
their Federal elections run smoothly and cost-effective. This 
is an important and valuable role of the Federal Government to 
play.
    My office has received numerous letters, phone calls and 
emails from elected officials of both parties from all across 
the country in support of the EAC and its work. It is a 
Commission worth reauthorizing and in a few minutes I will 
offer amendment to do that.
    My colleagues should once again reject--excuse me. This 
argument in support is well-known and it is only Federal 
agency. It is a Commission worth reauthorizing and in a few 
minutes, I will offer an amendment to do that. My colleagues 
should once again once reject this proposal.
    The Chairman. I appreciate the gentleman's comments about 
the bill. I think both myself and certainly Mr. Harper have 
articulated a number of reasons why we believe that elimination 
of the EAC is necessary.
    I will just note that the National Secretaries of State, 
which I was a member of at one time back in the day as well as 
Mr. Rokita, adopted resolutions calling for the dissolution of 
the EAC both in 2005 as well as 2010. Again, in calendar year 
2013, over $11 million has been appropriated for EAC, money 
which I think can be used in a much better fashion.
    So at this time I would ask if there are any amendments to 
this bill.
    Mr. Brady. Madam Chair.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Brady. I have an amendment in the nature of a 
substitute which has been distributed to the members.
    The Chairman. Without objection, the amendment will be 
considered read, and the gentleman is recognized for 5 minutes 
to speak on his amendment.
    [The amendment of Mr. Brady follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Brady. Thank you. This amendment would reauthorize the 
Election Assistance Commission to allow the agency to continue 
its important mission. Additionally, it calls for the EAC to 
determine the extent of which polling places are accessible for 
disabled voters and ensure all voters can cast their ballot. 
The amendment also tasks the EAC with determining the most 
cost-effective method to administer elections as well as 
methods for increasing the cost-effectiveness and value of the 
agency itself.
    Finally, this amendment will result in more transparency in 
the testing and certification of voting machines by 
establishing an escrow account that prevents machine 
manufacturers from paying directly to the laboratories ordering 
their machines and making information about the testing and 
certification results available to the public.
    This amendment continues the important mission of the EAC, 
which is to help America vote and making sure every vote is 
counted. I would ask my colleagues to support this amendment.
    The Chairman. I thank the gentleman for offering that 
amendment, and certainly again in the spirit in which the 
amendment was offered. I would just again comment, having just 
received the amendment, I am a huge 10th Amendment person, I 
think most of us are, and it appears at first blush looking at 
this amendment that you are actually giving the EAC more power 
over the States, shifting the burden from the States to the 
EAC, so it is sort of making the EAC more powerful. I am not 
sure that it makes it more efficient. Again, I don't think we 
need the EAC at all and we certainly don't need to give it 
anything else to do at this time, so I will be opposing the 
gentleman's amendment.
    Are there any other comments to the gentleman's amendment? 
The gentleman from Mississippi.
    Mr. Harper. Thank you, Madam Chair. You know, it is 
interesting that it was stated that it is designed, the EAC is 
supposed to help the States and localities be cost-effective, 
and that is rather ironic because the Election Assistance 
Commission would be the poster child for wasting money and not 
being cost-effective. They have done such things as double 
their employees' size in the last 4 or 5 years without any new 
responsibilities, not to mention the Inspector General reports 
that contain such information about spending $7,000 worth of 
taxpayer money to buy employees shirts for morale. I mean, come 
on.
    Then you look at other issues on spending and things that 
they have done, and the two discrimination cases against them 
that had to be resolved and settled and paid out in taxpayer 
funds to resolve those. It is just the mismanagement is such, 
we don't need to be expanding their work or keeping them. And I 
think we do need to go back, despite that history, and look at 
the fact that the bipartisan group, National Association of 
Secretaries of State, have looked at this agency that was 
supposed to last for 3 years after HAVA, and it now has gone on 
for, I guess more than 10 years now with no real end in sight. 
So this is a chance to do that.
    I ask to vote in opposition to this amendment, and I yield 
back.
    The Chairman. I thank the gentleman. You know, I would also 
comment about the EAC. Really, they did have their purpose 
originally. When the country, the Congress was appropriating 
all this money are for HAVA, over $3 billion that was shuffled 
out the door to all these various States for equipment, you had 
to have sort of a distribution point, somebody for 
accountability for that. So I do think the EAC had its time and 
its place. But I think, again, it has long outlived its 
usefulness.
    I would even just make a personal observation, listening to 
the President's State of the Union when he constituted this 
National Elections Committee to study what has happened and 
some of the best practices and worst practices in how elections 
are being administered in some of the States, he never 
mentioned the EAC. He never gave them any responsibilities in 
that. Here you have a staff, they already have housing, they 
have got an office here in D.C. So they are staffed up and they 
have an office space, and yet the President, in his comments, 
never mentioned them or thought to utilize them in any way.
    So, again, I just think that they have outlived their 
usefulness and I will be opposing the gentleman's amendment.
    Are there any other members that wish to speak to the 
amendment? The gentleman from California.
    Mr. Vargas. Thank you, Madam Chairman. I would like to 
support the amendment made by the ranking member. I think all 
of us remember the huge lines in this last presidential 
election. In fact, it was rather striking, on television there 
was a gentleman who was an elderly veteran who had been 
standing in line for hours attempting to vote, and he said that 
he had gone and put his life on the line and had fought for the 
opportunity to vote, and yet it was so difficult, it seemed 
that they made it purposely difficult for him to cast his vote. 
That shouldn't happen in America. You should have the right to 
vote. A person, especially a veteran who is disabled, went and 
fought for our country, should expeditiously be able to go and 
vote his conscience for whomever he is going to vote for, for 
whomever she is going to vote for.
    I had the opportunity in 2000 to be an international 
observer to the Mexican election when Vincente Fox became the 
first person to defeat the established party there, the PRI, 
and the shocking thing for me was the size of the lines to 
vote. I think in Mexico they purposefully made it difficult to 
vote so one party would stay in power, at least that is what it 
seemed to me as an observer, and the lines were incredibly 
long. Yet that is exactly what we saw.
    In a developing country you see those lines, you think, 
well, they don't have the technology, they don't have the 
money, they don't have the assistance. But to see those times 
of lines in America is outrageous. I mean, we have to do 
something about it, and I think that is what the amendment 
attempts to address and I appreciate the amendment. Thank you.
    The Chairman. I thank the gentleman. I also think we all 
watched those lines on TV, and my personal reaction to it was 
amazement that that was still happening. It is sort of amongst 
the usual suspects, I will say. This is my personal opinion. 
Florida, some places here in the District, in Virginia. In my 
State of Michigan, we didn't have any stories like that. In 
your State, they didn't have any stories like that.
    There were a couple of places that had those stories, and I 
believe as a former election official, as soon as I saw that, I 
thought, well, first of all, there ought to be accountability 
of the election supervisors locally that were running those 
elections. I was pretty sure that it was because they hadn't 
adequately trained their election inspectors, their precinct 
workers, they didn't have adequate amount of election equipment 
out there numerically for the demographics that they were 
servicing within those precincts, they just didn't have enough 
election equipment.
    Also, I am listening to some of these news reports where 
they are saying, I think it was in Florida, I am trying to 
remember exactly where they were talking about, they had 11 
pages on the ballot or something because of all of these, and 
we have a member of from Florida here, because of the ballot 
questions that were on there. I can't even imagine going 
through page after page after page reading these ballot 
questions, and I will yield to the gentleman in just a moment, 
but I know in most States, you have your election commissioner 
or whatever go through and summarize very quickly, but yet 
getting the intent of what the ballot question is, not the 
entire language of that.
    So again, I am not sure that when I saw the President 
appoint this Presidential Commission, in my opinion, I think 
you ought to hold the election officials who are running those 
elections accountable, and in the State of Florida, that is 
actually what happened because the Governor went to the 
Secretary of State and said, look at this, this is not right. 
And we ought have somebody look at it, make recommendations, 
which the Secretary of State in Florida did do, I know it is up 
online, I was reading it. Essentially many of the things that I 
brought forth and others that they found were exactly what 
happened there.
    Again, I am a 10th Amendment person. I think it is up to 
the State, and I am happy to yield to my friend, the colleague 
from Florida for any comment about that as well.
    Mr. Nugent. I thank the chairman for that. Florida, 
unfortunately, has had been in the national news on a couple 
issues over the years on elections. But when you look 
specifically at the areas, one was that ballot initiative, the 
constitutional amendments to the Constitution, 11 pages, which 
absolutely slowed the process down measurably. I mean, it was 
overwhelming.
    But if you look, I think you mentioned the usual suspects, 
but if you look in particular at the one county that it 
occurred in the worst, that supervisor of elections, it wasn't 
a Republican supervisor of elections. The supervisors of 
elections within the counties have great latitude and control 
of their elections in regards to staffing and the number of 
locations they want to open up.
    Just in my home county, you know, the new supervisor of 
election who is now a Republican who actually was one of my 
employees down in the district got elected, she has already 
increased the number of locations and hours to actually handle 
those types of issues. So you don't have people disenfranchised 
to have to stand and wait. Because I remember just early 
voting, driving by and seeing the lines so long that you would 
wait until the lines went down, and they never did.
    So it really is a local issue, it is a State issue in 
regards to how they set those up. And you are right, the 
Federal Government doesn't do a good job anyhow as it relates 
to those State issues. So the Election Commission never did 
that to start with, and wasn't challenged by the President to 
do that. So I absolutely support this.
    The Chairman. Just one other comment, watching Florida in 
particular, but in Michigan we don't have either no reason 
absentee voting or early vote. I have often been told if we had 
both of those things in Michigan we would really expedite the 
process. But I notice in your State, you have both of those 
things. I just point that out. So again, I think it points to 
the local election supervisor.
    Mr. Nugent. They have gone out of their way in regards to 
absentee voting. At one point in time, you had to have a 
reason. Now you don't. Anybody can absentee vote. They 
encourage people to absentee vote or early vote. So I think 
they have made a lot of accommodations trying to get more 
people the access to vote, but a lot of folks still want to go 
in there and put their mark on it.
    The Chairman. Absolutely. Well, I think we are certainly 
all in agreement of free, open, fair elections, and having long 
lines like that, there is no reason for it in today's time, no 
reason at all.
    I recognize the gentleman from Indiana, the former 
Secretary of State, Mr. Rokita.
    Mr. Rokita. I thank the Chairman. I am struck by Mr. 
Vargas' statements. First of all, I would like to say that in 
my years as an election official, I never knew one election 
official that didn't want the best for their voters, that 
didn't want an equal--excuse me, an accurate outcome, not 
equal. We wanted someone to win one way or another. We didn't 
necessarily like recounts, but we wanted a process that not 
only we could be proud of, given our profession, but that 
people would have confidence in.
    The reason I am concerned about the comments is because for 
some reason this amendment is about the EAC, and this is an 
amendment about making the EAC more powerful, actually not 
necessarily more efficient, but bigger and more powerful than 
it already is. And like the gentleman from Florida says, it 
exists here and now. It didn't solve the lines in Florida, nor 
would it nor will it ever no matter how big or how powerful it 
becomes. So that is one thing.
    I also would like to echo the comments that were alluded to 
a little bit earlier by the chairman and the gentleman from 
Florida, in that I don't know how it is in Mexico, but in all 
States, you can vote by absentee ballot. Some have, I wouldn't 
call them restrictions, I think that is too strong a word, but 
qualifications.
    In the gentleman's example, even if that gentleman wasn't 
from Florida where he didn't have to have an excuse at all to 
vote absentee by mail, let's say, he would have fit the 
qualification in Indiana because of his age and because of his 
disability. So the idea that he might have been in a line, 
albeit unfortunate, was his choice. And at some point we have 
to have parameters and rules to our election process or else we 
have chaos.
    So I think Florida has gone beyond what it really has to do 
in allowing people without any excuse whatsoever to vote 
absentee, but that is their choice and that is the good thing. 
I don't know anything about the ballot initiative being 11 
pages, but I think that is unreasonable and that probably 
contributed to the lines. But that doesn't mean there is a 
systemic failure, and it certainly doesn't mean that we need to 
make this government agency that hasn't performed well at all, 
whose reason for existence in the first place has been met, 
that we need to re-purpose it or make it bigger.
    By the way, I am not here to trash or beat up on EAC as an 
agency or any of the people in it, because I think the attitude 
and the problems demonstrated by this little baby agency, Madam 
Chairman, is really just a microcosm of the attitude and 
pervasiveness of some of the problems we have across all 
agencies, and we only have to look to a hearing going on in 
another part of the House side of this Congress to see the 
effect of that attitude, of that sloppiness, of that bias.
    I will say on the record I was a victim of EAC bias during 
one of their reports that caused an Inspector General 
investigation that called into account and clearly exposed that 
attitude. So it exists, it is out there, and the last thing we 
need to do with respect to the author of the amendment is make 
this agency or any agency any bigger or more powerful.
    What do I mean by more powerful? This amendment, as I 
understand it, removes the EAC, one example, removes the EAC 
from OMB oversight under the Paperwork Reduction Act so there 
is no control over what information they demand from the 
States, and I think that is absolutely the wrong way to go.
    I will close by just saying that the gentleman from 
Mississippi used the word ironic when talking about the purpose 
of this amendment and how it would make the States more 
efficient. I think the word better suited to my experience, at 
least as Indiana's chief election officer for 8 years, is 
offensive. The States may not be perfect. By definition of the 
word ``human,'' Madam Chairman, no one is perfect. But 
everywhere I saw at the State level and local level, all of us 
wanted to get it right and we wanted to get it right for this 
free republic above all else. And to say that some overseers 
here in this town are going to make sure we do it better is, I 
think, going to be intolerable for nearly all if not all of our 
State brothers and sisters.
    I yield back.
    The Chairman. I thank the gentleman for his comments. The 
gentleman from Pennsylvania.
    Mr. Brady. May I just make a quick comment. I don't know 
just how much just authority--and I looked into it when I was 
chair of this committee--we have to agree with my friends from 
Indiana and Florida by saying we make elections fairer, but not 
only in the States but throughout the entire country.
    In the State of Pennsylvania, we do have restrictions on 
absentee ballots to get an absentee ballot. We have no early 
voting. You have to be 65 years old or older. You have to have 
a doctor's certificate which is a little inconvenient from time 
to time, and you have to either show proof that you are out-of-
state to be able to vote absentee ballot, which is not unlike, 
and I wish we had the same rules as Florida and Indiana had 
with the early voting, which we don't have either. And it would 
be maybe--I would love to try to look into making all things 
equal throughout the whole United States, I mean, to make every 
State fair and have every State have the exact way how they can 
vote.
    To throw out one agency that tries to make it a little 
better, maybe supposed to, if they don't, maybe we can reform 
it instead of throwing it out, that has a little bit of teeth 
into putting some type of penalty on people that do violate it. 
We had lines in Pennsylvania, not only in Mexico, you know. I 
could not imagine, and I do chair the party in the City of 
Philadelphia, and I do have to run elections there to the best 
that I can and as much as I can.
    I could not imagine having 11 constitutional ballot 
questions on a ballot. I mean, that is somebody's mistake 
somewhere. I know I would have--I wouldn't have fired the 
person. With no disrespect, I would have shot him for putting 
that on the ballot.
    But I would like to maybe, again, say this in the spirit of 
maybe in cooperation where we can have every State have the 
same exact qualifications of early voting, absentee voting, and 
this way makes it fair for people from Pennsylvania, people 
from New Jersey, people from Florida, Indiana, wherever you are 
from. And maybe that is something I kept trying to look into 
and will continue to look into and my staff, maybe we can 
figure out a way to make that happen. The fairness in all 
elections is most important to all of us. So thank you.
    The Chairman. I thank the gentleman. Any other questions or 
comments? The gentleman from Georgia.
    Mr. Gingrey. Madam Chair, thank you. I am in opposition to 
the amendment. To a large extent, we are here to represent the 
voices of our constituents, each of us, approximately 700,000, 
and the voices of our State, our State government, being firm 
believers in the 10th Amendment and that which rules best rules 
closest to the people.
    Our Secretary of State has made it abundantly clear to me 
that this amendment is not necessary, and that the EAC indeed 
has outlived its usefulness. Some of the comments made by my 
colleague on the other side of the aisle whom I have great 
respect for in regard to, let's say, making everything equal, 
well, think about the Voting Rights Act, a piece of legislation 
that was abundantly necessary when it was passed because of 
egregious behavior regarding voting in certain States across 
the country, and indeed a lot of those States were in the 
Southeast. But, you know, here we are 50 years later, these 
States, and one of them is mine, the great State of Georgia, is 
far, far beyond that, and yet we are under section 5 of the 
Voting Rights Act for another 25 years. So, so much for making 
everything equal. Why not make that applicable to all 50 
States, rather than just 13 and in parts of a few more?
    This Election Assistance Commission, I was just told by my 
colleague a few minutes ago, while there are no commissioners, 
they are still leasing office space at a tune of $1 million a 
year. Now, if you were having to pay rent on an empty office 
space to the tune of $1 million a year and you were a small 
businessman or woman, you would be a little bit concerned about 
that.
    So this amendment does not reform the EAC. It expands it. 
It includes no reforms or efficiency. What it actually does is 
it reauthorizes it through 2018. It forces States to submit 
information the EAC asks for in post-election surveys. It 
removes the EAC from OMB oversight under the Paperwork 
Reduction Act, so there is no control over what information 
they demand. It gives the EAC more power over States. It shifts 
the burden from EAC to the States.
    Why it is bad is it does not address any of the real 
problems at the EAC. It makes the EAC more powerful, not more 
efficient, and we don't need the EAC at all and we certainly 
don't need to give it more to do. It has nothing to do now 
except pay $1 million a year rent for empty office space.
    I am opposed to the amendment, and I yield back.
    The Chairman. I thank the gentleman. Any other members wish 
to be recognized to speak on the amendment?
    If no more comments, we will vote on the gentleman's 
amendment. The question is on the amendment offered by the 
gentleman from Pennsylvania to H.R. 1994. Those in favor of the 
amendment signify by sayings aye; those opposed will signify by 
saying nay.
    In the opinion of the chair, the nays have it. The nays 
have it, the amendment is not agreed to.
    Are there any other amendments? If not, I move that the 
committee favorably report H.R. 1994 to the House and the 
question is on that motion.
    All those in favor signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it. The ayes 
have it, the motion is agreed to.
    Gentleman from Pennsylvania.
    Mr. Brady. I announce that the minority members will use 
the two additional calendar days provided by our clause 2(l) of 
rule XI of the Rules of the House in order to file abuse.
    The Chairman. I thank the gentleman. Without objection the 
motion to reconsider is laid upon the table. And pursuant to 
clause 2 of rule XI the member is entitled to two additional 
calendar days to file such views in writing and signed by that 
member with the clerk of the committee.
    For all of the matters that the committee has considered 
today I would ask unanimous consent that the staff be 
authorized to make technical and conforming changes if 
necessary. Without objection, so ordered.
    And this concludes today's markup. The meeting for the 
markup is adjourned. I appreciate the interesting debate and 
for all of the members. As you know, we are now prepared to 
begin our hearing for H.R. 2115.
    [Whereupon, at 12:01 p.m., the markup was concluded.]

</pre></body></html>
